OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/
MOZAMBIQUE’S COMPLIANCE
WITH FINANCIAL AUDIT
REQUIREMENTS REGARDING
FOREIGN RECIPIENTS
AUDIT REPORT NO. 4-656-06-015-P
September 22, 2006




PRETORIA, SOUTH AFRICA
Office of Inspector General


September 22, 2006

MEMORANDUM

TO:                  USAID/Mozambique, Mission Director, Jay L. Knott

FROM:                RIG/Pretoria, Nathan S. Lokos /s/

SUBJECT:             Audit of USAID/Mozambique’s Compliance with Financial Audit
                     Requirements Regarding Foreign Recipients (Report No. 4-656-06-015-P)

This memorandum transmits our final report on the subject audit. In finalizing this report,
we considered management comments on our draft report and have included your
response in its entirety as Appendix II.

This report includes seven recommendations that USAID/Mozambique: 1) develop and
implement an effective audit tracking system; 2) obtain and submit audit reports for
recipients with delinquent annual audits; 3) amend its Mission Order 9-8, dated
September 11, 1991; 4) obtain and submit audit reports for all expired awards requiring
closeout audits; 5) include all identified host country contracts in its award inventory for
fiscal year 2006; 6) amend Mission Order 9-8 to include procedures for including host
country contracts in award inventories and annual plans; and 7) obtain and submit
closeout audits for 11 implementing instruments of host country contracts in excess of
$500,000.

In response to the draft report, the Mission concurred with all the recommendations and
included corrective actions and target dates for Recommendation Nos. 2-7. We reviewed
USAID/Mozambique’s response and consider that a management decision has been
reached for each recommendation. Please provide the Audit, Performance and
Compliance Division (M/CFO/APC) with evidence of final action in order to close the
recommendations.

Although the Mission has implemented corrective actions for Recommendation No. 1, it
still needs to address the four controls specified in the recommendation. A management
decision can be reached for Recommendation No. 1 when USAID/Mozambique provides
corrective action plans and target completion dates that will correspond with the four
controls stated therein. Please advise my office within 30 days of the actions you have
planned or taken to implement Recommendation No. 1.

I appreciate the cooperation and courtesy extended to my staff throughout the audit.



U.S. Agency for International Development
100 Totius Street
Groenkloof X5
0181, Pretoria, South Africa
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objectives ................................................................................................................ 3

Audit Findings ................................................................................................................. 4

Did USAID/Mozambique ensure that planned financial audits
of foreign recipients were performed and submitted
in accordance with USAID rules and regulations? ............................................................ 4

     Audit Reports Not Submitted Within
     Required Timeframe .................................................................................................. 4

Did USAID/Mozambique ensure that annual audit plans
included all recipients from its award inventory
that required a financial audit? .......................................................................................... 6

     Awards Requiring Closeout Audits Need
     to be Included in Audit Plans....................................................................................... 7

     Host Country Contracts Need to be
     Included in Award Inventories ..................................................................................... 8

Evaluation of Management Comments ....................................................................... 10

Appendix I – Scope and Methodology ........................................................................ 11

Appendix II – Management Comments ....................................................................... 13

Appendix III – List of Delinquent Audits as of December 31, 2005 .......................... 16

Appendix IV – List of Expired Awards Requiring Closeout Audits .......................... 17

Appendix V – List of Host Country Contract Implementing Instruments
             Not in Award Inventories...................................................................... 18
SUMMARY OF RESULTS
The Regional Inspector General/Pretoria performed this audit to determine whether
USAID/Mozambique effectively managed its financial audit program in accordance with
USAID policies and procedures for fiscal years 2003, 2004, and 2005. (See page 3.)

USAID/Mozambique did not effectively manage its financial audit program during the
period covered by the audit. Specifically, USAID/Mozambique did not ensure that
planned audits of recipients were performed in a timely manner, delinquent audits were
followed up on and completed, or standard statements of work were used. To help
correct and strengthen these problem areas, we recommended that USAID/Mozambique
1) develop and implement an audit tracking system to better monitor and ensure timely
submission of planned audits and 2) complete all identified delinquent audits. (See
pages 4 - 6.)

In addition, although USAID/Mozambique prepared award inventories and annual audit
plans for fiscal years 2003-2005, those plans were incomplete. Specifically, the plans
omitted required closeout audits for 11 expired awards. The amount of USAID funding
included in those awards totaled $28.5 million. Further, the Mission funded three
contracting entities with host country contracts, totaling $75.7 million, which were not
included in the award inventories and were, therefore, not considered for inclusion in the
audit plans. We recommended that USAID/Mozambique 1) amend its Mission Order
dealing with recipient audits to ensure that expiring awards requiring closeout audits are
included in future audit plans, 2) complete all required closeout audits, 3) include host
country contracts in the current award inventory, 4) amend Mission procedures
regarding audits of host country contracts, and 5) have required closeout audits
performed for expired host country contracts. (See pages 6 - 9.)

The report has seven recommendations to help USAID/Mozambique improve its
financial audit program with regard to foreign recipients. In response to the draft report,
the Mission concurred with all recommendations. The Mission provided planned
corrective actions and target dates for Recommendation Nos. 2-7. The Mission
recognized the need to minimizing delays in the audit process. USAID/Mozambique
stated that the Mission workload was too much for local CPA firms to carry out audits
and was considering outsourcing CPA firms from abroad.

USAID/Mozambique intends to amend its Mission Order 9-8, dated September 11, 1991
to include procedures to ensure that closeout audits of expiring award in excess of
$500,000 are added in the future audit plans and include host country contracts in award
inventories and annual audit plans when necessary. We consider that a management
decision has been reached for Recommendation Nos. 2-7.

However, for Recommendation No. 1, the Mission still needs to address the four controls
stated therein to reach a management decision for this recommendation.




                                                                                         1
BACKGROUND
USAID administers most of its foreign assistance programs by awarding contracts,
grants and cooperative agreements to U.S.-based and foreign organizations. In order to
help ensure accountability over funds given to such organizations, USAID and the Office
of Inspector General (OIG) have jointly developed a financial audit program as outlined
in Automated Directives System (ADS) 591. This section of the ADS requires that
USAID missions, in consultation with the cognizant Regional Inspector General (RIG),
ensure that required financial audits are conducted for foreign for-profit and nonprofit
organizations and host government entities (including any Mission-funded activities in
nonpresence countries), and local currency special accounts.

All foreign nonprofit organizations expending more than $300,000 of USAID funds during
their fiscal year are required to have an annual financial audit performed. A closeout
audit is required for awards in excess of $500,000. Incurred cost audits must be
performed annually of all foreign for-profit organizations performing under direct awards
or cost reimbursable host country contracts and subcontracts.1 To ensure that such
audits are performed in a timely and acceptable manner, Missions are required to
develop annual audit plans which are populated from inventories maintained by the
Missions of all contracts, grants and cooperative agreements, including cash transfer
and nonproject assistance grants, awards financed with host country owned local
currency and activities in nonpresence countries for use in determining audit
requirements.

The audits are normally performed by independent auditors acceptable to the cognizant
RIG and contracted by recipients using a standard statement of work. On occasion,
USAID missions may contract directly with an audit firm to conduct financial audits of
foreign recipients or locally-incurred costs of U.S.-based recipients. Audits of USAID
recipients are required to be performed in accordance with U.S. Government Auditing
Standards as well as the OIG’s Guidelines for Financial Audits Contracted by Foreign
Recipients. Missions must ensure that such audit reports are submitted to the cognizant
RIG for review and issuance no later than nine months following the end of the audited
period.

In fiscal year 2005, USAID/Mozambique had 37 non-U.S.-based recipients. During fiscal
years 2003-2005, the Mission reported budget authorizations totaling $162.6 million for
programs in:
      • Increased Rural Incomes.
      • Government and Civil Society are Effective Partners.
      • Maternal and Child Health.
      • Environment for Growth.
      • Rural Incomes.
      • Exports.
      • HIV/AIDS.
      • Municipal Governance.


1
  In terms of a 2005 revision to ADS 591, there is no automatic requirement for annual incurred cost audits
for foreign for-profit organizations. Instead, Missions are required to annually assess risks to determine
whether financial audits are warranted and the results of these risk assessments must be shared with the
cognizant RIG office. The 2005 revision to ADS 591 was subsequent to the period covered by this audit.
                                                                                                         2
AUDIT OBJECTIVES
The Regional Inspector General/Pretoria (RIG/Pretoria) performed an audit of the
Mission’s compliance with financial audit requirements regarding foreign recipients
because it has been RIG/Pretoria’s experience that USAID missions in eastern and
southern Africa have generally not been complying with Automated Directives System
(ADS) 591 in terms of ensuring that required financial audits of foreign recipients are
conducted in a timely and acceptable manner. To determine USAID/Mozambique’s
compliance with USAID rules and regulations regarding financial audits of its foreign
recipients, the audit was performed to answer the following questions:

Objective No. 1: Did USAID/Mozambique ensure that planned financial audits of foreign
recipients were performed and submitted in accordance with USAID rules and
regulations?

Objective No. 2: Did USAID/Mozambique ensure that annual audit plans included all
recipients from its award inventory that required a financial audit?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                     3
AUDIT FINDINGS
Did USAID/Mozambique ensure that planned financial audits of
foreign recipients were performed and submitted in accordance
with USAID rules and regulations?
USAID/Mozambique did not ensure that all planned financial audits of foreign recipients2
were performed and submitted in accordance with USAID rules and regulations.

The majority of USAID/Mozambique’s planned financial audits of foreign recipients were
not submitted to RIG/Pretoria within nine months after the end of the audited period, as
required by the Office of Inspector General’s Guidelines for Financial Audits Contracted
by Foreign Recipients (Guidelines). For the six audit reports actually received by
RIG/Pretoria, the average submission time was 58 days (approximately two months)
after they were due. The subsequent sections of this report will more fully address this
area in detail.

USAID/Mozambique has planned for and submitted its audit inventories and audit plans
to RIG/Pretoria for fiscal years 2003 - 2005. Since November 15, 2002, RIG/Pretoria
has issued five financial audit reports of USAID/Mozambique recipients covering $11.3
million in expenditures of USAID funds. Those audit reports included recommendations
that addressed $954,278 in questioned costs, 10 internal control weaknesses, and 23
instances of material noncompliance with applicable laws and regulations.

There were several areas identified during our audit in which USAID/Mozambique could
improve its recipient financial audit program including timeliness and follow-up on
delinquent audits.


Audit Reports Not Submitted
Within Required Timeframe
Summary: According to Agency regulations, USAID missions must submit audit reports
of foreign recipients to the cognizant Regional Inspector General (RIG) no later than nine
months after the end of the audited period. Eight of ten audits in USAID/Mozambique’s
audit plans for fiscal years 2003 to 2005 were not submitted to RIG/Pretoria within the
required timeframe. This occurred due to a lack of understanding between Mission
personnel and recipients. Audits that are not completed in a timely manner reduce
USAID’s accountability over funds awarded to recipients.

Automated Directives System (ADS) 591.3.2.1 requires that foreign nonprofit
organizations and host governments that expend $300,000 or more of USAID funds
during their fiscal year must have an annual audit conducted in accordance with the
Office of Inspector General’s Guidelines for Financial Audits Contracted by Foreign
Recipients (Guidelines). Paragraphs 1.16 and 2.3 of the Guidelines spell out the
timeframe within which recipients must submit final audit reports to the cognizant USAID

2
 For the purpose of this audit, foreign recipients include non-U.S.-based grantees and contractors who were
awarded grants, contracts or cooperative agreements.
                                                                                                         4
mission, which, in turn, will forward them to the RIG for review and issuance. According
to the Guidelines, the cognizant RIG must receive the audit report no later than nine
months after the end of the audited period.

USAID/Mozambique’s annual audit plans prepared for fiscal years 2003, 2004, and 2005
included ten distinct planned financial audits of seven different recipients. The
breakdown of the ten audits is presented in Table 1 below.


                                        Table 1
              Recipient Audits in Annual Plans for Fiscal Years 2003-2005

                  Number of recipients          # of annual         Totals
                                               audits in plans
                            3                         2              6
                            4                         1              4
                            7                                        10


Of the ten planned audits, two reports were submitted to RIG/Pretoria for review and
issuance on or before the required due date. For the six audit reports actually received
by RIG/Pretoria, the average submission time was 58 days (approximately two months)
after they were due.

The lack of timeliness was caused by several reasons, which include a lack of
understanding between Mission personnel and recipients regarding the ADS
requirements, ineffective management of audit firms to ensure that the planned audits
were performed and submitted within the required timeframe, and a lack of continuity
planning between the departure and arrival of key Mission personnel. As a result, not
only were the planned audits not submitted in a timely manner, but many were not
submitted at all. For example, only six of the ten audits included in the Mission’s audit
plans for fiscal years 2003, 2004, and 2005 had been submitted to RIG/Pretoria as of
December 31, 2005. The remaining four audits (listed in Appendix III) had either not
been performed, or, if performed, had not been submitted to RIG/Pretoria.

Delayed performance and submission of audit reports reduces USAID’s accountability
over funds awarded to recipients. This also increases the risk that recipients’ financial
records are no longer available for audit, or that their offices have ceased operations
making the determination and recovery of potential questioned costs difficult or
impossible. Even when records do exist, or the recipient is still in operation, untimely
audit reports lose their usefulness because management (USAID or recipient) cannot,
based on the reports, implement corrective actions in a timely manner to prevent fraud,
waste and abuse. Total estimated expenditures not audited on a timely basis amounted
to over $7.6 million, while the estimated expenditures of planned audits not submitted at
all amounted to over $3.3 million.

For the mission to be able to submit timely audit reports to RIG/Pretoria, it must have a
system to monitor the status of planned audits and dedicated personnel to provide
interventions when targeted milestones are not being met. Therefore, we are making
the following recommendations:



                                                                                       5
   Recommendation No. 1: We recommend that USAID/Mozambique develop and
   implement an effective audit tracking system to monitor the recipient financial
   audit process to ensure timely submission of reports to RIG/Pretoria. This
   system should, at a minimum, include controls to ensure that:

   •   Appropriate timing targets and milestones are set for each audit in the
       Mission’s current audit plan.
   •   Audit instructions are sent to recipients prior to the recipient’s fiscal year end
       requesting them to initiate the procurement for the audit.
   •   Periodic follow-up is performed to determine the implementation status of all
       planned audits.
   •   Corrective actions are taken and documented for audits that are not
       progressing as planned.

   Recommendation No. 2: We recommend that USAID/Mozambique obtain and
   submit audit reports for all recipients with delinquent annual audits.


Did USAID/Mozambique ensure that annual audit plans included
all recipients from its award inventory that required a financial
audit?
USAID/Mozambique did not ensure that annual audit plans included all recipients from
its award inventories that required a financial audit.

Automated Directives System (ADS) 591.3.3.2 refers to Contract Information Bulletin
(CIB) 90-12 which requires that all awards in excess of $500,000 be subject to a final
closeout audit. USAID/Mozambique’s annual audit plans omitted 16 expired direct
awards that required closeout audits. Additionally, ADS 591.3.4.2 requires host country
contracts to be included in award inventories. Thirteen host country contracts, active
during fiscal year 2003-2005, were not included in the Mission’s award inventories for
those years. The subsequent sections of this report will more fully address this area in
detail.

As required by ADS 591.3.4.2, USAID/Mozambique developed award inventories for
fiscal years 2003, 2004, and 2005. The award inventories for fiscal years 2004 and
2005 included the required information for each award, including contractor/grantee
name, type of organization, award number, amount in U.S. dollars, start/completion
dates, prior audits and period covered, receipt date for required audits, dates for planned
audits, and reason(s) for not including an award in the annual audit plan. The Mission
also developed an annual audit plan for each of those fiscal years which included ten
distinct audits of foreign recipients receiving awards listed in those inventories.

Although USAID/Mozambique prepared the award inventories and related audit plans as
required, not all awards that required audits were included in the audit plans.




                                                                                            6
Awards Requiring Closeout Audits
Need To Be Included In Audit Plans
Summary: Agency policy requires that all awards in excess of $500,000 be subject to a
final closeout audit. The policy also states that annual incurred cost audits must be
accepted as fulfilling closeout audit requirements. USAID/Mozambique’s annual audit
plans omitted 11 expired direct awards that required closeout audits. This occurred
because Mission officials were unaware of the 11 expired awards. As a result, $28.5
million of USAID funds that should have been audited remains unaudited.

Automated Directives System (ADS) 591.3.3.2 states that Contract Information Bulletin
(CIB) 90-12 requires “all awards in excess of $500,000 be subject to a final closeout
audit.” This section of the ADS also states that annual audits, performed in accordance
with the Guidelines for Financial Audits Contracted by Foreign Recipients must be
accepted as fulfilling the close-out audit requirements for foreign nonprofit organizations.

The intent of CIB 90-12 is to ensure that awards to recipients whose expenditures do not
exceed the $300,000 threshold on an annual basis, but amount to significant amounts of
expenditures over the life of the award, are audited to ensure proper closeout of the
award. Recipients which had not had annual audits performed and which had awards in
excess of $500,000 were identified from the Mission’s award inventories.

USAID/Mozambique’s award inventories for fiscal years 2003, 2004, and 2005 included
11 expired direct awards over the $500,000 threshold which were not included in the
Mission’s respective annual audit plans. According to the Mission’s award inventories
and audit plans for fiscal years 2003 – 2005, these expired awards had no recent annual
audits prior to the recipient’s award completion date. Consequently, required closeout
audits were not conducted for those awards. In addition, there were no recent annual
audits performed for these awards prior to the award completion date. A list of the 11
awards requiring closeout audits is included as Appendix IV in this report. The following
table, relating to unaudited expired awards, presents the amount of time that expired
between the completion date of the award and December 31, 2005.

                                         Table 2
                    Aging of Expired Awards Requiring Closeout Audits


           Under 1 yr.       Over 1 yr –     Over 3 years –    Over 5 yrs.        Total
                            under 3 yrs.      under 5 yrs.
                7                1                 2                1              11

Mission officials did not include these expired awards in annual audit plans because they
were unaware of the 11 expired awards. The most commonly stated reason stated in
the Mission’s award inventories for not including such awards in the annual audit plans
was that the expenditures were less than $300,000 for the recipient’s fiscal year. Also,
USAID/Mozambique’s Mission Order 9-8, dated September 11, 1991 regarding “Audit
and Investigations of USAID funded Activities in Mozambique” did not include any
procedures regarding the planning or performance of closeout audits of awards
exceeding $500,000.



                                                                                          7
As a result, 11 expired direct awards that should have received closeout audits remain
unaudited. The amount of USAID funding included in those awards totaled $28.5
million.

Closeout audits are important tools in the control and accountability of USAID funds.
Such audits may be used, among other things, to finalize indirect cost rates and to
determine whether the disposition of USAID-funded assets was properly performed at
the end of a project or activity. A closeout audit of expenditures of USAID funds would
be especially important when a recipient may have expended less than $300,000 in any
single year, but the total award was over $500,000. Such recipients may never have
been subject to a USAID audit as required. Further, according to ADS 591.3.3.2,
Contract/Grant Officers cannot proceed with the closeout process until final action has
been taken on all audit recommendations. Finally, because they were not included in
the Mission’s audit plans during the period they were due; such audits would not be
performed within the required timeframe. We are, therefore, making the following
recommendations:

    Recommendation No. 3: We recommend that USAID/Mozambique amend its
    Mission Order 9-8, dated September 11, 1991 to ensure that closeout audits of
    expiring awards in excess of $500,000 are included in future audit plans and
    performed as required.

    Recommendation No. 4: We recommend that USAID/Mozambique obtain and
    submit audit reports for all expired awards requiring closeout audits.


Host Country Contracts Need To Be
Included in Award Inventories
Summary: Agency policy requires missions to maintain an inventory of all awards from
which annual audit plans may be developed. Agency policy also dictates that host
country contracts3 are subject to the same USAID audit requirements as direct contracts.
Thirteen host country contracts, active during fiscal year 2003-2005, were not included in
the Mission’s award inventories for those years. This occurred because Mission officials
misunderstood the USAID requirements that host country contracts needed to be
included in award inventories, or that host country contracts were subject to USAID audit
requirements. As a result, 13 implementing instruments for four host country contracts,
totaling $75.7 million in USAID funds, were not considered for inclusion in the Mission’s
annual audit plan for potential financial audits and, therefore, oversight of USAID funds
was diminished.

ADS 591.3.4.2 requires missions to “maintain an inventory of all contracts, grants and
cooperative agreements, including cash transfer and nonproject assistance grants,
awards financed with host country-owned local currency, and activities in nonpresence
countries for use in determining audit requirements.” Country Contracting Handbook
section 3.8 states that an audit of non-U.S.-based firms shall be a cost-incurred, financial

3
  ADS Glossary defines Host Country Contracting as “A means of program implementation in which USAID
finances, but is not a party to, contractual arrangements between the host country and the supplier of goods
and/or services.” ADS 301.5.1a states that when USAID decides to use host country contracting proce-
dures, it acts as financier and not a contracting party, reserving certain rights of approval and activity moni-
toring.
                                                                                                              8
audit performed by the principal audit agency to the host country or an independent audit
agency acceptable to the USAID Inspector General and as set forth in the Strategic
Objective Agreement (SOAG) or a SOAG Implementation Letter. It further adds that the
Guidelines should be followed in the selection of auditors and that the auditors should
observe the Guidelines in planning, conducting, and reporting the results of the audit.
Moreover, section 3.9 of the Country Contracting Handbook specifically states that “Final
payment to the contractor is withheld until the contractor provides evidence that it has
met all of its obligations under the contract and all required certifications (including
acceptance of the work by the Contracting Agency) have been executed and the
contract has been audited, as provided above. The USAID Activity Manager will be
notified of contract closeout and contract files will be maintained in storage at least three
years from the final disbursement under the SOAG.” (emphasis added)

RIG/Pretoria obtained a list of USAID-funded host country contracts from
USAID/Mozambique that were active during the fiscal years 2003-2005. A comparison
of this list to the Mission’s award inventories revealed that three contracting entities with
13 implementing instruments for four host country contracts totaling $75.7 million were
not included in the award inventories. A list of the 13 implementing instruments for the
four host country contracts appears as Appendix V in this report. Of these 13
implementing instruments, 11 exceeded $500,000 and are subject to closeout audits.

This occurred because Mission officials misunderstood the USAID requirements that
host country contracts should be included in the Mission’s award inventories and
considered for potential financial audits.

To prevent the omission of host country contracts from the Mission’s award inventories
in the future, we are making the following recommendations:

   Recommendation No. 5: We recommend that USAID/Mozambique include all
   identified host country contracts in its award inventory for fiscal year 2006.

   Recommendation No. 6: We recommend that USAID/Mozambique amend
   Mission Order 9-8 dated September 11, 1991 to include procedures for including
   host country contracts in award inventories and annual audit plans, as
   appropriate.

   Recommendation No. 7: We recommend that USAID/Mozambique obtain and
   submit closeout audits for the 11 implementing instruments of the host country
   contracts in excess of $500,000.




                                                                                           9
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/Mozambique concurred with all seven
recommendations. For Recommendation Nos. 2 and 4, the Mission set forth its plans to
seek more capable CPA firms to minimize delays in the audit process. This includes
outsourcing CPA firms from abroad to ensure that the USAID/Mozambique submits audit
reports in a timely manner that complies with the Guidelines to reduce the iterative
drafting of audit report when reviewed by RIG/Pretoria.

The Mission will amend its Mission Order 9-8, dated September 11, 1991 as a response
to Recommendation Nos. 3 and 6 to ensure that closeout audits of expiring awards in
excess of $500,000 are included in future audit plans. In addition, the amended Mission
Order 9-8 will include procedures for including host country contracts in award
inventories and annual plans, when appropriate.

To address Recommendation No. 5, USAID/Mozambique will include all identified host
country contracts in its award inventory for fiscal year 2006. The Mission addressed
Recommendation No. 7 as it will include all host country contracts detail in its audit
inventory list for fiscal year 2006. Therefore, we consider that a management decision
has been reached for Recommendation Nos. 2-7.

Although the Mission has implemented its corrective actions to address Recommenda-
tion No. 1, stating that an audit coordinator is systematically following up on the audit
process by providing guidance, instruction and recommending corrective actions for
audits that are not proceeding as planned and monitoring audit tracking system and
observing the timely updating of audits, USAID/Mozambique still needs to address the
following controls specified in the recommendation, namely:

•   Appropriate timing targets and milestones are set for each audit in the Mission’s
    current audit plan.
•   Audit instructions are sent to recipients prior to the recipient’s fiscal year end
    requesting them to initiate the procurement for the audit.
•   Periodic follow-up is performed to determine the implementation status of all
    planned audits.
•   Corrective actions are taken and documented for audits that are not progressing
    as planned.

A management decision may be reached when the Mission provides RIG/Pretoria with a
detailed corrective action plan and target dates to address the four controls stated in
Recommendation No. 1.




                                                                                         10
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria (RIG/Pretoria) performed this audit in
accordance with generally accepted government auditing standards. The audit was
performed at the Regional Inspector General in Pretoria, South Africa. The audit
notification was sent on December 20, 2005. The audit was conducted from March 24
though April 16, 2006.

The audit covered financial audit requirements for USAID/Mozambique’s awards to non-
U.S.-based recipients during fiscal years 2003, 2004, and 2005.

The type of evidence examined during the audit included, but was not limited to, award
inventories and audit plans submitted by the Mission for fiscal years 2003 - 2005,
RIG/Pretoria’s Audit Management Database and archives, and correspondence from the
Mission.

For the most part, we relied on the accuracy and completeness of the award inventories
that were submitted by the Mission to RIG/Pretoria because the responsibility for
preparing award inventories rests with the Mission’s Audit Management Officer, who
should have the technical capacity to prepare reliable award inventories. The primary
focus of our audit was the development and execution of the annual audit plans from
those award inventories. Thus, with few exceptions, we limited our procedures to
determining whether data in the award inventories were properly used to develop the
audit plans and whether those audit plans were executed in an acceptable and timely
manner. We recognize the limitations of our reliance on the accuracy and completeness
of the award inventories, and hereby disclose this in the audit report—the primary
limitation being that all awards requiring a financial audit may not have been included in
the Mission’s award inventories. Further, expiration dates and total amounts of awards
in inventories may not have been accurate.

With regard to internal controls, we assessed:

•   Award inventories.
•   Audit plans.
•   Mission orders regarding financial audits.


Methodology
To accomplish the audit objectives, we reviewed and analyzed the annual audit plans
and award inventories for fiscal years 2003, 2004 and 2005 submitted to RIG/Pretoria for
USAID/Mozambique. We compared audit reports actually submitted to RIG/Pretoria to
planned audits listed in the Mission’s audit plans in order to determine the timeliness of
the submission. We compared the audit plans to the award inventories to determine the
accuracy of the audit plans. To determine recipients requiring closeout audits, we
reviewed the Mission’s award inventories and selected awards that were not subject to
an annual audit prior to the program completion date. The audit also included a review
of correspondence between RIG/Pretoria and the Mission regarding award inventories


                                                                                       11
                                                                            APPENDIX I


and annual audit plans. We also requested additional information from the Mission
when required.

For materiality thresholds, we considered the following to be material:

•   Timeliness of submission of audit reports - if the number of acceptable audit reports
    submitted after the 9-month due date was > 10 percent of the number of planned
    audits, we considered the lack of timeliness to be material;

•   Delinquent audit reports – any number of delinquent planned audit reports was
    considered to be material; and

•   Completeness and accuracy of audit plans – any number of required audits not
    included in the audit plans was considered to be material.

This was one of a total of nine similar audits that we are performing of USAID missions
within the eastern and southern Africa region. As RIG/Pretoria already possesses most
of the information needed to conduct the audits, we did not consider travel to the
locations of the respective missions to be necessary. Any questions regarding audit
procedures or preliminary results could be handled via e-mail or telephone.




                                                                                      12
                                                                           APPENDIX II



MANAGEMENT COMMENTS



                                                                     August 21, 2006


MEMORANDUM

TO:             Nathan Lokos, Regional Inspector General/Pretoria

FROM:           Kevin Armstrong, Acting Mission Director USAID/Mozambique
                /s/

SUBJECT:        Audit of USAID/Mozambique’s Compliance with Financial
                Audit Requirements Regarding Foreign Recipients
                (Report No. 4-656-06-xxx-P)

Ref:             RIG/Memorandum dated July 17, 2006

We refer to the above Memorandum that contains seven recommendations for
which USAID/Mozambique has been requested to provide comments and
feedback:

Recommendation No. 1: We recommend that USAID/Mozambique develop
and implement an effective audit tracking system to monitor the recipient
financial audit process to ensure timely submission of reports to RIG/Pretoria.
This system should, at a minimum, include controls to ensure that:

       •   Appropriate timing targets and milestones are set for each audit in the
           Mission’s current audit plan.
       •   Audit instruction are sent to recipients prior to the recipient’s fiscal year
           end requesting them to initiate the procurement for the audit
       •   Periodic follow-up is performed to determine the implementation status of
           all planned audit
       •   Corrective actions are taken and documented for audits that are not
           progressing as planned.



                                                                                     13
                                                                       APPENDIX II



Mission’s comments: The Mission audit coordinator is systematically following
up on the audit process by providing guidance, instruction and recommending
the corrective actions for audits not proceeding as planned. Monitoring audit
tracking system and observing the timely updating of audits is now being
performed on a regular basis. The mission is aware of the delay of audit reports
caused by the time it takes for draft reports to be placed in their final form. The
lack of task specificity and understanding between Mission personnel, recipients
and the CPA firms also delayed some audits. The Mission is considering
outsourcing CPA firms from aboard to minimize the delay of the audit process.
Currently, the Mission workload is too much for the local CPA firms that are
capable to carry out audits. The Mission is also cooperating and working closely
with the CTO and the recipients on appropriate timing, target setting and
procurement guidelines for all audits. The Mission has also made some internal
changes in the audit coordination process.

Recommendation No. 2: We recommend that USAID/Mozambique obtain and
submit audit reports for all recipients with delinquent annual audits.

Mission’s comments: Once the Mission resolves the shortage of capable CPA
firms, the issue of obtaining and submitting audit reports to RIG will be done in a
timely and an organized manner. Several of the Mission’s audit reports are
delayed because the CPA firms prepare numerous draft revisions of audit reports
with RIG which slows the entire process. For example, our most proactive CPA
firm submitted a draft audit report to RIG in August 2005; however, we are
currently in August 2006 and the report is still in the draft stage. Due to the
iterative nature of drafting and audit reports, the mission needs to seek more
capable CPA firms. The Mission believes that by outsourcing capable CPA firms
from abroad will insure that we obtain and submit audit reports in timely and an
organized manner.

Target date: June 2007

Recommendation No. 3: We recommend that USAID/Mozambique amend its
Mission Order 9-8, dated September 11, 1991 to ensure that closeout audits of
expiring awards in excess of $500,000 are included in the future audit plans and
performed as required.

Mission’s comments: Mission will amend its Mission Order 9-8, dated
September 11, 1991 to ensure that closeout audits of expiring awards in excess
of $500,000 are included in the future audit plans.

Target date: October 2006

Recommendation No. 4: We recommend that USAID/Mozambique obtain and
submit audit reports for all expired awards requiring closeout audits.



                                                                                 14
                                                                      APPENDIX II



Mission’s comments: Mission will ensure expired close-out audits will be
submitted to RIG/Pretoria. We would also encourage RIG to provide us with
timely feedback once the reports are submitted to their office.

Target Date: March 2007

Recommendation No. 5: We recommend that USAID/Mozambique include all
identified host country contracts in its award inventory for fiscal year 2006.

Mission’s comments: The Mission will include all the host country contracts
detail in the new audit inventory list for 2006.

Target Date: October 2006

Recommendation No. 6: We recommend that USAID/Mozambique amend
Mission Order 9-8, dated September 11, 1991 to include procedures for including
host country contracts in award inventories and annual audit plans, as
appropriate.

Mission comments: Mission will amend its Mission Order 9-8, dated
September 11, 1991 to include procedures for including host country contracts in
award inventories and annual plans, as appropriate.

Target Date: October 2006

Recommendation No. 7: We recommend that USAID/Mozambique obtain and
submit closeout audits for the 11 implementing instruments of the host country
contracts in excess of $500,000.

Management comments: The Mission will include all the host country contracts
detail in the audit inventory list for 2006.

Target Date: March, 2007

Should you require any additional information, please feel free to contact us.


Clearances:

Drafter:    Ripon S. Zaman                                                  Date:

            Acting Director: Kevin Armstrong                                Date:

            Controller: Derrick S. Brown                                    Date:



                                                                                 15
                                                                                 APPENDIX III



    LIST OF DELINQUENT AUDITS
     AS OF DECEMBER 31, 2005

                                                                                     # of Days
            Award Number4         Recipient’s       Total          Estimated          Between
                                  Fiscal Year     Amount of         Annual          Audit Report
                                      End         Award ($)       Expenditures       Due Date
                                                                      ($)4          and 12/31/05
    1   656-A-00-99-00022-005       9/30/04         2,032,202            873,337         184
    2   656-C-00-00-00066-005 &                     3,399,993
                                    5/31/04
        656-I-00-01-00078-015                       2,175,000          2,040,221         275
    3   656-I-00-01-00080-015        7/31/04        1,100,000            376,951         245
    4   656-A-00-04-00049-00        12/31/04          398,454            398,454          92
        Total Estimated
        Expenditures                                                   3,688,963




4
  Award numbers and estimated annual expenditures are presented as they appear in the Mis-
sion’s audit inventories.
5
  This award number has also been included in Appendix IV of this report (list of expired awards
requiring closeout audits.)




                                                                                               16
                                                                                           APPENDIX IV


      LIST OF EXPIRED AWARDS
    REQUIRING CLOSEOUT AUDITS
              Award Number6                Award            Total Amount of        # of Days Between
                                         Completion              Award              Audit Report Due
                                            Date               (in US $)           Date and 12/31/05

     1   PIL 690-0247.56-133               12/31/01                 1,048,034                       1,187
     2   656-I-00-01-00080-017             03/31/05                 1,535,956                            0
     3   656-I-00-01-00080-00              09/30/04                   500,000                         183
     4   656-I-00-01-00078-017             06/30/04                 3,499,628                         275
     5   656-I-00-01-00078-00              03/31/05                   744,216                            0
     6   656-G-00-96-00004-00              09/30/99                   745,854                       2,009
     7   656-C-00-00-00066-007             12/31/02                 3,157,371                         822
     8   656-A-00-99-00022-007              9/30/04                 2,947,000                         183
     9   656-A-00-04-00041-00               5/31/05                 2,050,000                         -608
    10   656-A-00-01-00077-00               9/30/04                11,584,600                         183
    11   656-0229-G-00-7060-00              4/30/01                   679,124                       1,429
                    Total                                          28,491,783




6
  Award numbers have been presented as they appear in the Mission’s audit inventories.
7
  This award number has also been included in Appendix III of this report (list of delinquent audits as of
December 31, 2005.)
8
  The audit report for this award was not due as of December 31, 2005, however, it should be included in
the Mission’s audit plan.
                                                                                                             17
                                                                                APPENDIX V



      LIST OF HOST COUNTRY
     CONTRACT IMPLEMENTING
       INSTRUMENTS NOT IN
       AWARD INVENTORIES
                                                Contract Expiration       Contract Amount
        Supporting Document Number9                   Date                   (In US $)
 1   IL 656-0251-49                                 11/21/2002                      7,622,922
 2   IL 656-0251-65 / JV65651084                    1/31/2003                         514,165
 3   IL 656-0251-41                                 8/19/2002                       7,877,635
 4   IL 656-0251-57                                 5/21/2002                       1,780,779
 5   IL 656-0251-64                                 10/21/2002                      1,832,380
 6   L/Com 656-0251-01 Amendment 4                  10/21/2002                        700,000
 7   IL 656-0251-91                                 1/31/2004                          54,906
 8   L/Com 656-0251-01 Amendment 7                   9/30/2004                        127,276
 9   IL 656-0251-41 / L/Com 656-0251-03             8/19/2002                       9,156,380
10   L/Com 656-0251-03 Amendment 2                  4/30/2003                         619,852
11   IL 656-0244-26                                 9/30/2004                      33,510,903
12   IL 656-0244-41                                 9/30/2004                       6,321,002
13   IL 656-0244-42                                 9/30/2004                       5,544,183
                       Total                                                       75,662,383




9
 The supporting document numbers are presented as they appear in the Mission’s listing of Host
Country Contracts provided to RIG/Pretoria on January 6, 2006.


                                                                                            18
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
